TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                      Customer Account Data Engine 2
                 Performance and Capacity Is Sufficient, but
                   Actions Are Needed to Improve Testing



                                           May 16, 2012

                              Reference Number: 2012-20-051




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.tigta.gov
                                                   HIGHLIGHTS


CUSTOMER ACCOUNT DATA ENGINE 2                        follow procedures to ensure that performance
PERFORMANCE AND CAPACITY IS                           requirements were completely tested during the
SUFFICIENT, BUT ACTIONS ARE                           Final Integration Test Phase I. As a result, the
NEEDED TO IMPROVE TESTING                             IRS may not have acquired all the necessary
                                                      information to make a fully informed decision on
                                                      the ability of the CADE 2 system to effectively
Highlights                                            process transactions under expected normal
                                                      and peak workload conditions, within acceptable
                                                      response time thresholds. TIGTA also found
Final Report issued on May 16, 2012                   that the IRS needs to develop procedures for
                                                      access to and retention and maintenance of
Highlights of Reference Number: 2012-20-051           testing artifacts for Final Integration Testing.
to the Internal Revenue Service Chief
Technology Officer.                                   WHAT TIGTA RECOMMENDED
IMPACT ON TAXPAYERS                                   TIGTA recommended that the Associate Chief
                                                      Information Officer, Applications Development,
Built on the foundations of the current Customer      ensure internal controls for testing performance
Account Data Engine (CADE), CADE 2 will allow         and capacity requirements are formally and
the IRS to convert the existing weekly individual     effectively implemented to ensure the
taxpayer account processing system to daily           traceability of these requirements through the
batch processing. Such an enhancement                 performance testing process. This should
should improve the service provided to                include the use of integrated automated tools,
taxpayers by allowing the IRS to more effectively     when warranted by program and project size, to
and efficiently update taxpayer accounts,             improve the consistency and completeness of
support account settlement and maintenance,           testing performance and capacity requirements.
and process refunds on a daily basis. The             In addition, the IRS should develop procedures
ability of the IRS to accurately execute, monitor,    related to the access to and retention and
and assess performance and capacity testing           maintenance of testing artifacts for performance
directly affects whether, after implementation,       testing.
CADE 2 will be capable of processing the
necessary quantity and types of information           In their response to the report, IRS management
within required time frames. The untimely             agreed with TIGTA’s recommendations. The
completion of information processing could            IRS plans to ensure internal controls for testing
result in delayed taxpayer refunds and reduced        performance and capacity requirements are
customer service.                                     formally and effectively implemented to ensure
                                                      the traceability of these requirements through
WHY TIGTA DID THE AUDIT                               the performance testing process. This will
The overall objective of this review was to           include the use of automated tools for testing,
determine whether the IRS is effectively testing      where appropriate. The IRS also plans to
the performance and capacity of CADE 2. This          review and, as warranted, develop procedures
audit was included in our Fiscal Year 2011            related to the access to and retention and
Annual Audit Plan and addresses the major             maintenance of testing artifacts across all test
management challenge of Modernization of the          projects.
IRS.
WHAT TIGTA FOUND
The IRS has successfully established a testing
environment for CADE 2 that is representative of
the production environment. This is allowing the
IRS to obtain meaningful data from its
pre-production tests. However, the IRS did not
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            May 16, 2012


 MEMORANDUM FOR CHIEF TECHNOLOGY OFFICER

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Customer Account Data Engine 2 Performance
                             and Capacity Is Sufficient, but Actions Are Needed to Improve Testing
                             (Audit # 201120026)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) is effectively testing the performance and capacity of the Customer Account Data
 Engine 2. This audit was included in our Fiscal Year 2011 Annual Audit Plan and addresses the
 major management challenge of Modernization of the IRS.
 Management’s complete response to the draft report is included as Appendix V.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. Please contact me at (202) 622-6510 if you have questions or
 Alan R. Duncan, Assistant Inspector General for Audit (Security and Information Technology
 Services), at (202) 622-5894.
                       Customer Account Data Engine 2 Performance and Capacity Is
                           Sufficient, but Actions Are Needed to Improve Testing




                                              Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          The Customer Account Data Engine 2 Test Environment Is
          Representative of the Production Environment ............................................ Page 3
          Procedures Were Not Effectively Followed to Ensure Performance
          Requirements Were Completely Tested During Final Integration
          Test Phase I ................................................................................................... Page 3
                    Recommendation 1:.......................................................... Page 6

          Procedures Need to Be Developed for Access to and Retention
          and Maintenance of Testing Artifacts. .......................................................... Page 7
                    Recommendation 2:.......................................................... Page 7


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 9
          Appendix II – Major Contributors to This Report ........................................ Page 11
          Appendix III – Report Distribution List ....................................................... Page 12
          Appendix IV – Glossary of Terms ................................................................ Page 13
          Appendix V – Management’s Response to the Draft Report ....................... Page 16
       Customer Account Data Engine 2 Performance and Capacity Is
           Sufficient, but Actions Are Needed to Improve Testing




                      Abbreviations

CADE            Customer Account Data Engine
FIT             Final Integration Testing
IRS             Internal Revenue Service
RTVM            Requirements Traceability Verification Matrix
                      Customer Account Data Engine 2 Performance and Capacity Is
                          Sufficient, but Actions Are Needed to Improve Testing




                                               Background

The Internal Revenue Service (IRS) had two primary production systems that processed
individual taxpayer account data, the Individual Master File1 and current Customer Account Data
Engine (CADE). In June 2011, current CADE tax processing was taken out of production in
order to implement changes necessary for its integration with CADE 2. The IRS underwent a
major development effort to deploy CADE 2 functionality in January 2012.
The IRS approach for delivery of CADE 2 is a functional and technical progression through two
Transition States to a Target State. Transition State 1 has two main purposes: 1) to establish a
database that will house all individual taxpayer accounts and provide the ability for IRS
employees to view the updated account information online (Database Implementation); and 2) to
provide individual taxpayer account information to select external systems on a daily basis as
opposed to the current weekly basis (Daily Processing). Affected processes include the receipt
and submission of tax returns; the processing and management of accounts, examinations,
collections; and criminal investigation. The key IRS customer service system, the Integrated Data
Retrieval System, would also realize the benefit of more timely posted data. Such an
enhancement to these business processes and systems should improve the service provided to
taxpayers by allowing the IRS to more effectively and efficiently update taxpayer accounts,
support account settlement and maintenance, and process refunds on a daily basis. Transition
State 1 Daily Processing went live, as planned, on January 17, 2012.
Transition State 2 will address financial material weaknesses and build or modify existing
applications to directly interact with the CADE 2 database. Finally, the Target State will focus on
completing the transition of all applications and achieving the business benefits that are enabled
by the target solution. This final step is necessary to provide for the long-term viability of the
CADE 2 platform.
As part of Transition State 1, the IRS performed Final Integration Testing (FIT), which is an
end-to-end integration test of multiple systems which support the high-level business
requirements. The FIT is planned from the perspective that all IRS application systems are
subsystems to an overall tax processing system. The tax processing system consists of hundreds
of subsystems operating on many unique hardware and software platforms. The FIT is designed
to ensure that IRS systems work together correctly prior to production start up. CADE 2 Daily
Processing started FIT Phase I on July 7, 2011, and concluded on October 7, 2011. The testing
was completed after the planned end date which allowed the IRS to perform additional testing,
analyze metrics, and revalidate failed tests.


1
    See Appendix IV for a glossary of terms.
                                                                                            Page 1
                Customer Account Data Engine 2 Performance and Capacity Is
                    Sufficient, but Actions Are Needed to Improve Testing



CADE 2 FIT Phase I was used to demonstrate the system’s capability to execute daily processing
jobs within allocated performance windows in a near production-like environment. In order to
provide testing in a simulated production environment, FIT Phase I utilized a copy of production
data to prepare test cases with predetermined results. Unique test cases created based on
requirements were used to verify systemic interoperability. Data were processed and passed from
system to system exercising all communication links to demonstrate that information was being
correctly exchanged between applications.
We focused our review on performance and capacity requirements that were tested during
CADE 2 FIT Phase I. Database Implementation was removed from FIT Phase I and will be tested
separately in a future test outside of FIT Phase I. As a result of Database Implementation not
being tested during FIT Phase I, it was removed from the scope of this audit.
This review was performed at the Modernization and Information Technology Services
organization facility in New Carrollton, Maryland, during the period November 2011 through
February 2012. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




                                                                                         Page 2
                Customer Account Data Engine 2 Performance and Capacity Is
                    Sufficient, but Actions Are Needed to Improve Testing




                                Results of Review

The Customer Account Data Engine 2 Test Environment Is
Representative of the Production Environment
The IRS’s Test Assurance Documentation Standards and Procedures detail the procedures and
guidelines for establishing a test environment. The test environment should emulate the
production environment to the greatest degree possible.
The FIT Phase I test was conducted on mainframe platforms located at the Enterprise Computing
Centers in Martinsburg, West Virginia, and Memphis, Tennessee. At Martinsburg, the test
environment consisted of International Business Machines Corporation z990 and z10 mainframe
computers. At Memphis, the mainframe test environment consisted of a Unisys Corporation
780 Dorado mainframe computer and an International Business Machines Corporation
z900 mainframe computer. The testing of tax processing that occurs on the IRS’s server
environment was conducted in the IRS Enterprise Systems function’s Test Lab located in
New Carrollton, Maryland.
To simulate production-like volumes for CADE 2 Daily Processing testing and test case
development, the IRS used data from the submission processing sites and Master File for 2011
peak production cycles. These data represent the April 15th peak tax processing period and the
weeks immediately before and after it. Data from these cycles are the closest representation of
what daily processing will be like in a peak period in Processing Year 2012.
We compared the physical overview diagrams of the two environments and then validated the
system specifications listed in capacity requirements. Our comparison indicated that the major
infrastructure components are identical, but that there are slight differences in processing
capability, storage capacity, and memory. Discussions with IRS subject matter experts and our
review of IRS documentation indicated these slight differences were expected. The IRS
reiterated that the CADE 2 test environment was designed to be representative of the production
environment, not an exact replica of it.

Procedures Were Not Effectively Followed to Ensure Performance
Requirements Were Completely Tested During Final Integration Test
Phase I
The IRS Test Assurance Documentation Standards and Procedures detail the requirement analysis
process. This analysis is the cornerstone of a systems acceptability test. A requirement, at its
lowest decomposed level, provides specific information for a single function performed by a

                                                                                           Page 3
                       Customer Account Data Engine 2 Performance and Capacity Is
                           Sufficient, but Actions Are Needed to Improve Testing



      software application. A process exists whereby a person or machine can verify that the system
      built meets the requirement (that is, the requirement is testable). Taken collectively, requirements
      completely define all system capabilities.
      These procedures also stress the importance of a Requirements Traceability Verification Matrix
      (RTVM), one of the key controls used to provide IRS management with evidence that
      requirements are sufficiently gathered prior to the development of test cases. An RTVM also
      helps to ensure all requirements are included in test cases and are tested. The absence of an
      RTVM increases the risk that not all requirements are tested to ensure the system works as
      intended.
      To validate the core changes to the tax pipeline processing system as a whole, the IRS tested a
      subset of high-level CADE 2 requirements. The FIT Phase I End of Test Status Report stated that
      the requirements selected for testing were documented as scenarios, and that the IRS documented,
      tracked, and monitored these test scenarios in an automated tool.
      We evaluated 227 performance and capacity requirements from a repository of CADE 2
      requirements. All of these requirements were included in authorized and approved Database
      Implementation or Daily Processing internal design documents. These documents recognize the
      use of various requirements as the basis for the business solution design, development,
      integration, testing, and deployment of the CADE 2 system. We determined that 70 (31 percent)
      of these performance requirements were included in the RTVM and could be traced to
      702 corresponding test cases. Figure 1 provides a detailed breakdown of the number of
      requirements that were or were not traced to test cases.
            Figure 1: Performance and Capacity Requirements Traced to Test Cases
                 Requirements Traced to Test Cases                                Number
            Requirements With Test Cases                                          70 (31%)
            Requirements With No Test Cases
               Environmental Design                                               66 (29%)
               Database Implementation                                            68 (30%)
               Daily Processing                                                   23 (10%)
            Total                                                               227 (100%)
           Source: Treasury Inspector General for Tax Administration analysis of IRS performance and capacity
           requirements.

The IRS indicated that 66 (29 percent) performance and capacity requirements were
environmental design requirements. While these requirements were not supported with
documented test cases, they were supported by Government equipment lists showing hardware

                                                                                                     Page 4
                 Customer Account Data Engine 2 Performance and Capacity Is
                     Sufficient, but Actions Are Needed to Improve Testing



purchases to meet the requirement capabilities. Eight of these 66 requirements specifically
referenced hardware specifications such as number of terabytes or Millions of Instructions Per
Second. For each of these eight requirements, we successfully traced the amount of storage,
processing speed, or memory that was listed to the physical components shown in the FIT Plus
Environment Physical Overview Diagram. We also reviewed an IRS comparison of the CADE 2
production environment to the CADE 2 FIT test environment. In addition, the IRS internally
validated the addition of CADE 2 components into the existing FIT environment.
Sixty-eight (30 percent) of the requirements were categorized as Database Implementation
requirements. As previously discussed, Database Implementation testing was removed from the
scope of FIT Phase I. There were no test cases provided for these Database Implementation
requirements. The remaining 23 (10 percent) Daily Processing requirements were not supported
with test cases. One of these requirements was identified as a future test outside the scope of FIT
Phase I. The remaining 22 requirements did not have documented test cases or were not traced to
an alternative testing method. This lack of internal control in ensuring that all requirements are
traced to an appropriate testing method increases the potential risk of future performance issues.
Test scripts establish the relationships between the requirements to be tested and the associated
test cases. Each test script is run and marked as passed, failed, or incomplete/inconclusive.
Figure 2 provides a detailed breakdown of the results for each category. Our review of the IRS
testing results determined that 215 (31 percent) of 702 test scripts passed and 255 (36 percent)
were incomplete or inconclusive due to processing issues. The IRS indicated that the processing
issues included, but were not limited to, errors in programming language.
                            Figure 2: Performance Test Results
                             Test Script Results                 Number
                         Failed                                 232 (33%)
                         Incomplete/Inconclusive                255 (36%)
                         Passed                                 215 (31%)
                         Total                                 702 (100%)
                        Source: Treasury Inspector General for Tax Administration
                        analysis of IRS performance testing results.

The performance testing results in Figure 2 were only one of several factors considered in the
decision to move forward from FIT Phase I testing and could not be considered alone in
determining the production readiness of the system. An in-depth analysis of CADE 2
performance testing was conducted by IRS subject matter experts with the assistance of
contractors. This analysis led to adjustments being made to several variables, including the
processing time frame targets and the testing environment. These adjustments addressed the
performance test failures, as well as incomplete and inconclusive test results, thereby resulting in

                                                                                              Page 5
                 Customer Account Data Engine 2 Performance and Capacity Is
                     Sufficient, but Actions Are Needed to Improve Testing



CADE 2 performing within required time frames and providing management with confidence to
move forward from FIT Phase I to further performance testing.
As a result of FIT Phase I testing and other analyses, the IRS made the determination that
CADE 2 Daily Processing is capable of processing the required quantities and types of
transactions within the specified predetermined time frames. However, we identified a lack of
effective planning and compliance with established procedures in the development of an RTVM
and ensuring that all requirements were tested.
The IRS did not effectively implement or consistently use two automated tools that could have
provided improved traceability for requirements in the testing process. As a result, performance
and capacity requirements could not be traced to testing results. The inconsistent use of these
tools resulted in the IRS using a manual process to manage the test cases, potentially resulting in
unnecessary complexity and inefficiency within the test management and reporting process.
By not ensuring that each requirement had a test case; documenting its traceability, including the
results of testing; and identifying when requirements were to be tested, the IRS has increased the
potential risk that the CADE 2 system will not perform in an acceptable manner. The risk exists
that the IRS has not tested all requirements associated with system performance because test cases
were not developed or were overlooked due to the lack of a documented schedule. Due to these
risks, the potential exists that the IRS did not acquire all necessary information to make a fully
informed decision on the capability of the CADE 2 system to effectively process transactions
under expected normal and peak workload conditions, within acceptable response time thresholds.

Recommendation
Recommendation 1: The Associate Chief Information Officer, Applications Development,
should ensure that internal controls for testing performance and capacity requirements are
formally and effectively implemented to ensure the traceability of these requirements through the
performance testing process. This should include the use of integrated automated tools, when
warranted by program and project size, to improve the consistency and completeness of testing
performance and capacity requirements.
       Management’s Response: The IRS agreed with the recommendation. The Associate
       Chief Information Officer, Applications Development, will ensure internal controls for
       testing performance and capacity requirements are formally and effectively implemented
       to ensure the traceability of these requirements through the performance testing process.
       This will include the use of automated tools for testing, where appropriate.




                                                                                             Page 6
                 Customer Account Data Engine 2 Performance and Capacity Is
                     Sufficient, but Actions Are Needed to Improve Testing



Procedures Need to Be Developed for Access to and Retention and
Maintenance of Testing Artifacts
According to the FIT Phase I Technical Test Plan, dated April 8, 2011, test artifacts should be
saved in either hard copy or to electronic media and retained for one year. These artifacts include
input and output data files, logs and matrices, and test documentation (e.g., project folders,
scenarios, and test cases). The test plan also states that once the CADE 2 FIT Phase I was
completed that these test artifacts were to be kept for an agreed-upon length of time, up to one
year. Guidelines for the file backup and retention process can be found in IRS procedures entitled
Types of Records and their Life Cycle.
System logs are the artifacts that support test case results for tests run during FIT Phase I
performance testing. Logs are automatically created and stored for a predetermined amount of
time. The information in these logs, specifically job start and end times, are used to determine
whether a job completed in its allotted amount of time and, therefore, is the basis for whether a
test has passed or failed.
During on-site observations, we presented the IRS with multiple test cases of differing results (i.e.
pass, fail, incomplete) from the FIT Phase I performance RTVM. The process to identify test
artifacts in support of these testing results was an informal process consisting of multiple steps.
To identify the test artifacts using this process, IRS personnel used an online test case
management tool to identify a test script within a test case, then referred to a detailed spreadsheet
used to maintain artifact details, and finally accessed a separate application that interfaced with
and pulled artifact data from the specific mainframe computer on which the testing was
performed. The process for retaining and accessing testing artifacts for FIT Phase I performance
testing was not documented or formalized. However, the IRS indicated that formal procedures
are currently in development.
The IRS did not create formal procedures for the access to and retention of testing artifacts prior
to initiating CADE 2 FIT Phase I testing, but relied on an informal process that was different for
each system that maintained the artifact information. A lack of formal procedures regarding the
access to and retention and maintenance of FIT Phase I performance testing artifacts increases the
potential that artifacts may not be maintained in accordance with data retention procedures. The
lack of standardization in maintenance of testing artifacts increases the risk that artifacts needed
for future review or for use in other development projects may not be available.

Recommendation
Recommendation 2: The Associate Chief Information Officer, Applications Development,
should develop procedures related to the access to and retention and maintenance of testing
artifacts for performance testing.


                                                                                              Page 7
        Customer Account Data Engine 2 Performance and Capacity Is
            Sufficient, but Actions Are Needed to Improve Testing



Management’s Response: The IRS agreed with the recommendation. The Associate
Chief Information Officer, Applications Development, will review and, as warranted,
develop procedures related to the access to and retention and maintenance of testing
artifacts across all test projects.




                                                                              Page 8
                 Customer Account Data Engine 2 Performance and Capacity Is
                     Sufficient, but Actions Are Needed to Improve Testing



                                                                                    Appendix I

        Detailed Objective, Scope, and Methodology

The overall objective of this audit was to determine whether the IRS is effectively testing the
performance and capacity of CADE 2. To accomplish this objective, we:
I.     Determined whether the performance and capacity requirements were authorized and test
       cases existed for the requirements.
       A. For Database Implementation:
           1. Determined whether all performance requirements, as stated in CADE 2 Database
              Implementation Transition State 1 Performance Measurement Plan - 09/02/2011,
              were properly approved by management by determining if source documents
              (e.g., Database Implementation Business System Report and Database
              Implementation Design Specification Report) had been properly reviewed and
              approved by management.
           2. Determined whether changes to performance requirements were properly
              authorized and reflected in updated test scenarios.
       B. For Daily Processing:
           1. Determined whether all performance and capacity requirements were properly
              approved by management by determining if source documents (e.g., Daily
              Processing Business System Report and Daily Processing Design Specification
              Report) had been properly reviewed and approved by management.
           2. Determined whether performance and capacity requirements in our sample had
              been included in the RTVM.
           3. Determined whether changes to performance and capacity requirements in our
              sample were appropriately authorized and updated.
II.    Determined whether the CADE 2 performance and capacity requirements were
       effectively tested.
       A. Determined whether the environment used to conduct FIT was consistent with the
          production environment.
       B. Determined whether CADE 2 Program tests were conducted, results analyzed, and
          defects adequately resolved.



                                                                                            Page 9
                Customer Account Data Engine 2 Performance and Capacity Is
                    Sufficient, but Actions Are Needed to Improve Testing



III.   Determined whether CADE 2 performance and capacity requirements that failed testing
       (i.e., defects) were properly resolved.
       A. Obtained and reviewed the End-of-Test Status Report which contains the final
          complete test results.
           1. Identified any performance/capacity issues identified during testing.
           2. Verified that all performance/capacity test cases passed, were waived, or deferred.
       B. Verified that the RTVM was updated to include test results as passed, waived, or
          deferred.
       C. Determined whether the CADE 2 executive handling of risks/issues identified during
          testing was appropriate.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the CADE 2 Project Management office’s
and the Enterprise System Testing organization’s policies and procedures for effectively testing
performance and capacity of developing systems. We evaluated these controls by interviewing
management, reviewing the Project Management office’s and the Enterprise System Testing
organization’s policies and procedures, as well as by reviewing test cases and other testing
byproducts for tests run during FIT Phase I.




                                                                                         Page 10
               Customer Account Data Engine 2 Performance and Capacity Is
                   Sufficient, but Actions Are Needed to Improve Testing



                                                                              Appendix II

                 Major Contributors to This Report

Alan R. Duncan, Assistant Inspector General for Audit (Security and Information Technology
Services)
Danny Verneuille, Director
Carol Taylor, Audit Manager
Myron Gulley, Acting Audit Manager
Curtis Kirschner, Senior Auditor
Elton Jewell, Information Technology Specialist
Daniel Oakley, Information Technology Specialist




                                                                                     Page 11
               Customer Account Data Engine 2 Performance and Capacity Is
                   Sufficient, but Actions Are Needed to Improve Testing



                                                                           Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Chief Information Officer for Operations OS:CTO
Associate Chief Information Officer, Applications Development OS:CTO:AD
Associate Chief Information Officer, Enterprise Operations OS:CTO:EO
Associate Chief Information Officer, Modernization - Program Management Office
OS:CTO:MP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Controls OS:CFO:CPIC:IC
Audit Liaison: Director, Risk Management Division OS:CTO:SP:RM




                                                                                 Page 12
                Customer Account Data Engine 2 Performance and Capacity Is
                    Sufficient, but Actions Are Needed to Improve Testing



                                                                                Appendix IV

                              Glossary of Terms

Term                           Definition
Capacity Testing               A process of testing the program(s) under heavy load by
                               putting a large number of inputs that are beyond the handling
                               capacity of the application.
Computer Capacity              Capacity is interpreted in terms of system resources required
                               to process peak workload demand, i.e., Central Processing
                               Unit, Input/Output, Memory, Disk space. Industry best
                               practices indicate that modern mainframe systems are capable
                               of running at high levels of system utilization and that it is the
                               performance of higher priority workloads that should be
                               managed, not the level of system utilization.
Computer Performance           Computer system performance relates to the response time of
                               the system, i.e., the amount of time it takes the system to
                               perform a given unit of work. Typical units of work are
                               transactions.
Enterprise Computing Center    Supports tax processing and information management through
                               a data processing and telecommunications infrastructure.
Final Integration Testing      A system test consisting of integrated end-to-end testing of
                               mainline tax processing systems to verify that new releases of
                               interrelated systems and hardware platforms can collectively
                               support the IRS business functions allocated to them.
Fiscal Year                    A 12-consecutive-month period ending on the last day of any
                               month, except December. The Federal Government’s fiscal
                               year begins on October 1 and ends on September 30.
Individual Master File         The IRS database that maintains transactions or records of
                               individual tax accounts.
Integrated Data Retrieval      IRS computer system capable of retrieving or updating stored
System                         information. It works in conjunction with a taxpayer’s
                               account records.



                                                                                         Page 13
               Customer Account Data Engine 2 Performance and Capacity Is
                   Sufficient, but Actions Are Needed to Improve Testing




Term                         Definition
Mainframe                    A powerful, multiuser computer capable of supporting many
                             hundreds of thousands of users simultaneously.
Master File                  The IRS database that stores various types of taxpayer account
                             information. This database includes individual, business, and
                             employee plans and exempt organizations data.
Performance Testing          Determines whether the system undergoing testing can
                             effectively process transactions under expected normal and
                             peak workload conditions, within acceptable response time
                             thresholds. Performance testing will uncover any bottlenecks
                             and capacity constraints that may not have occurred during
                             normal functional testing.
Processing Year              The calendar year in which the tax return or document is
                             processed by the IRS.
Requirements Traceability    A tool showing the relationship between test requirements and
Verification Matrix          test cases.
Scenario                     Comprised of the event (i.e., type of input data that results in
                             an action), the entry point into the system (e.g., Information
                             Data Retrieval System, Integrated Submission and Remittance
                             Processing, etc.), and the action.
Submission Processing Site   The data processing arm of the IRS. The sites process paper
                             and electronic submissions, correct errors, and forward data to
                             the Computing Centers for analysis and posting to taxpayer
                             accounts.
Systems Acceptability Test   Testing performed by the Test, Assurance, and Documentation
                             group to independently assess the quality of the application
                             software by testing with controlled data to determine
                             conformance of the system to customer requirements and to
                             aid the customer and developer in determining the system’s
                             production readiness.
Test Case                    A document specifying the test approach for a software
                             feature or combination of features and the inputs, predicted
                             results, and execution conditions for the associated tests.




                                                                                     Page 14
               Customer Account Data Engine 2 Performance and Capacity Is
                   Sufficient, but Actions Are Needed to Improve Testing




Term                       Definition
Test Environment           The preliminary setup of hardware, resources, data, utilities,
                           etc., required to run a successful test.
Test Plan                  A document that describes the objectives, scope, approach,
                           and focus of a software testing effort.
Test Results               A documented summary or printed output resulting from the
                           execution of the test plan.
Test Script                A set of instructions that is performed on a system under test
                           to verify that the system performs as expected.




                                                                                    Page 15
    Customer Account Data Engine 2 Performance and Capacity Is
        Sufficient, but Actions Are Needed to Improve Testing



                                                   Appendix V

Management’s Response to the Draft Report




                                                         Page 16
Customer Account Data Engine 2 Performance and Capacity Is
    Sufficient, but Actions Are Needed to Improve Testing




                                                     Page 17
